                                              1   OFFICE OF
                                              2   ASSISTANT SECRETARY FOR
                                              3   ADMINISTRATION AND MANAGEMENT
                                              4
                                          5
Office of Inspector General—Office of Audit
                                          6
                                          7
                                          8
                                          9
                                         10
                                         11
                                         12
                                         13
                                         14
                                         15
                                         16
                                         17
                                         18
                                         19
                                         20

                                         21       COMPLAINT INVOLVING THE
                                         22       DEPARTMENT OF LABOR’S COMPETITIVE
                                         23       SOURCING OF FINANCE AND ACCOUNTING
                                         24       POSITIONS
                                         25

                                         26
                                         27
                                         28
                                         29
                                         30
                                         31
                                         32
                                         33
                                         34




                                                                       Date Issued: September 28, 2007
                                                                       Report Number: 03-07-002-07-711
U.S. Department of Labor                                 September 2007
Office of Inspector General
Office of Audit                                          Complaint Involving the Department of
                                                         Labor’s Competitive Sourcing of Finance
                                                         and Accounting Positions
BRIEFLY…
Highlights of Report Number: 03-07-002-07-711, to        WHAT OIG FOUND
the Assistant Secretary for Administration and           DOL did not comply with Federal requirements
Management.                                              governing the preliminary planning process for the
                                                         competitive sourcing of DOL’s finance and
WHY READ THE REPORT                                      accounting positions because the OCFO, as the
                                                         lead agency for conducting the competition study,
The Office of Inspector General (OIG) performed an
                                                         did not use the FAIR Act Inventory as the starting
audit in response to a complaint concerning the U.S.
                                                         point. As a result, the initial phase included
Department of Labor’s (DOL) competitive sourcing of
                                                         inherently governmental positions that were being
its finance and accounting positions. The
                                                         considered for competition, which Federal
complainant alleged that DOL did not comply with
                                                         regulations do not allow. This occurred because
Office of Management and Budget (OMB) Circular
                                                         DOL did not have a policy that specifically stated
A-76 policies and procedures for the preliminary
                                                         that the position classifications in the FAIR Act
planning process for the finance and accounting
                                                         Inventory must be used as the starting point for
competition study, and that although a contractor’s
                                                         competition studies. After an affected agency raised
report for the preliminary planning of the competitive
                                                         concerns, the OCFO and OCS excluded those
sourcing was inaccurate, funds were awarded to the
                                                         inherently government positions from further
same contractor to rectify the inaccuracy.
                                                         evaluation before the next phase of the preliminary
                                                         planning process. However, further corrective action
The Office of the Assistant Secretary for
                                                         is needed to mitigate the risk that inherently
Administration and Management’s (OASAM) Office
                                                         governmental positions are included in future
of Competitive Sourcing (OCS) is responsible for
                                                         competitive sourcing studies.
overseeing the planning and implementation of
DOL's competitive sourcing program. The Assistant
                                                         Concerning the allegation that the contractor
Secretary for Administration and Management
                                                         received funds to correct deficiencies in its
assigned the Office of the Chief Financial Officer
                                                         Preliminary Planning Report on the DOL finance and
(OCFO) as the lead agency for the finance and
                                                         accounting services competition study, we found
accounting services competition because of its
                                                         that Management Analysis, Incorporated (MAI)
responsibilities over DOL’s financial accounting
                                                         received funds to perform work subsequent to the
employees and systems.
                                                         preliminary planning phase, but did not use them to
                                                         correct deficiencies in the Preliminary Planning
WHY OIG DID THE AUDIT                                    Report, as alleged. Rather, OCFO and OCS officials
The purpose of our audit was to answer the               performed the work to correct deficiencies in the
following questions:                                     Preliminary Planning Report.

    1. Did DOL comply with Federal requirements
       for the preliminary planning process for the      WHAT OIG RECOMMENDED
       DOL Enterprise-Wide Finance and                   We recommend that the Assistant Secretary for
       Accounting services competition study?            Administration and Management establish and
                                                         implement a policy that requires agencies
    2. Did the contractor receive funds to correct       performing competitive sourcing competition studies
       deficiencies in its Preliminary Planning          to use the position classifications contained in the
       Report on the DOL Enterprise-Wide Finance         FAIR Act Inventory as a starting point, unless and
       and Accounting services competition study?        until it is changed through approved processes.

                                                         In response to the draft report, the Deputy Assistant
READ THE FULL REPORT                                     Secretary for Operations agreed with the
To view the report, including the scope,                 recommendation and stated that OASAM has
methodology, and the Deputy Assistant Secretary          initiated corrective action.
for Operations’ response, go to:
http://www.oig.dol.gov/public/reports/oa/2007/03-07-
002-07-711
               Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




Table of Contents
                                                                                                                          PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7
   The OCFO did not comply with Federal requirements for the
   preliminary planning process for the DOL finance and accounting services
   competition study. .................................................................................................... 8

   The contractor did not receive funds to correct deficiencies in its Preliminary
   Planning Report on the DOL finance and accounting services competition
   study. ....................................................................................................................... 12

APPENDICES ............................................................................................................... 15
   A. Background ......................................................................................................... 17

   B. Objectives, Scope, Methodology, and Criteria ................................................. 19

   C. Acronyms and Abbreviations ............................................................................ 21

   D. Agency Reponse to the Draft Report ................................................................ 23




U.S. Department of Labor—Office of Inspector General                                                                              1
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




Executive Summary
The Office of Inspector General (OIG) performed an audit in response to a complaint
concerning the U.S. Department of Labor’s (DOL) competitive sourcing of its finance
and accounting positions. The complainant alleged that DOL did not comply with Office
of Management and Budget (OMB) Circular A-76 policies and procedures for the
preliminary planning process for the finance and accounting competition study, and that
although a contractor’s report for the preliminary planning of the competitive sourcing
was inaccurate, funds were awarded to the same contractor to rectify the inaccuracy.

Competitive sourcing studies are part of the competition process used to compare the
performance of a government organization with that of a private sector or other non-
Federal organization to determine which service provider can supply mission-related
support at the best price without compromising quality. The Federal Activities Inventory
Reform (FAIR) Act of 1998 requires that an executive agency use a competitive
process, under the guidance of OMB Circular A-76, to select the source for the
performance of commercial activities. Under the FAIR Act, Federal agencies must
develop an annual inventory of all commercial activities performed by Federal
employees, e.g., those activities that are not inherently governmental. The commercial
activities on the inventory provide the universe of activities upon which future decisions
related to competitive sourcing may be made. It is the policy of the Federal
Government to perform inherently governmental activities with Government personnel
and subject commercial activities to the forces of competition. Agencies shall not use
contractors to perform inherently governmental activities.

The Office of the Assistant Secretary for Administration and Management’s (OASAM)
Office of Competitive Sourcing (OCS) is responsible for overseeing the planning and
implementation of DOL's competitive sourcing program. OCS provides assistance and
guidance to DOL agencies in planning and conducting streamlined and standard
competitions. The Assistant Secretary for Administration and Management assigned
the Office of the Chief Financial Officer (OCFO) as the lead agency for the finance and
accounting services competition because of its responsibilities over DOL’s financial
accounting employees and systems.

Our audit objectives were to answer the following questions:

   1. Did DOL comply with Federal requirements for the preliminary planning process
      for the DOL Enterprise-Wide Finance and Accounting services competition
      study?

   2. Did the contractor receive funds to correct deficiencies in its Preliminary Planning
      Report on the DOL Enterprise-Wide Finance and Accounting services
      competition study?



U.S. Department of Labor—Office of Inspector General                                       3
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


We conducted our audit in accordance with Government Auditing Standards for
performance audits.

Results

DOL did not comply with Federal requirements governing the preliminary planning
process for the DOL Enterprise-Wide Finance and Accounting Services competition
study. Specifically, the OCFO, as the lead agency for conducting the competition study,
did not use the FAIR Act Inventory as the starting point in the initial phase of the
preliminary planning process. As a result, the initial phase included inherently
governmental positions that were being considered for competition, which Federal
regulations do not allow. This occurred because OCS did not have a policy that
specifically stated that the position classifications in the FAIR Act Inventory must be
used as the starting point for competition studies. After an affected agency raised
concerns, the OCFO and OCS excluded those inherently government positions from
further evaluation before the next phase of the preliminary planning process. However,
further corrective action is needed to mitigate the risk that inherently governmental
positions are included in future competitive sourcing studies.

Concerning the allegation that the contractor received funds to correct deficiencies in its
Preliminary Planning Report on the DOL finance and accounting services competition
study, we found that Management Analysis, Incorporated (MAI) received funds to
perform work subsequent to the preliminary planning phase, but did not use them to
correct deficiencies in the Preliminary Planning Report, as alleged. Rather, OCFO and
OCS officials performed the work to correct deficiencies in the Preliminary Planning
Report.

Recommendation

We recommend that the Assistant Secretary for Administration and Management
establish and implement a policy that requires agencies performing competitive
sourcing competition studies to use the position classifications contained in the FAIR
Act Inventory as a starting point, unless and until it is changed through approved
processes.




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


Agency Response

In response to the draft report, the Deputy Assistant Secretary for Operations stated the
Department's policy and practice is that inherently governmental functions are not
subject to A-76 competitions. The response included a copy of a September 13, 2007,
memorandum from the Assistant Secretary for Administration and Management to DOL
agency heads clarifying the policy of using the DOL FAIR Act Inventory as the starting
point for establishing the universe of full time equivalents to be included in competitive
sourcing competitions. The response and follow-up email state the policy is planned to
be incorporated in DLMS-3, Chapter 900, Performance of Commercial Activities, by the
second quarter of Fiscal Year 2008.

OIG Conclusion

Based on the Deputy Assistant Secretary for Operations’ response and our review of
the of the memorandum issued to agency heads, the recommendation is resolved and
will be closed when OASAM issues the revised DLMS-3, Chapter 900, incorporating the
memorandum’s policies and procedures.




U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report

Mr. Patrick Pizzella
Assistant Secretary
  for Administration and Management
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210


The Office of Inspector General (OIG) performed an audit in response to a complaint
concerning the U.S. Department of Labor’s (DOL) competitive sourcing study of its
finance and accounting positions. The complainant alleged that DOL did not comply
with OMB Circular A-76 policies and procedures for the preliminary planning process for
the finance and accounting competition study, and that although a contractor’s report for
the preliminary planning of the competitive sourcing was inaccurate, funds were
awarded to the same contractor to rectify the inaccuracy.

Our audit objectives were to answer the following questions:

   1. Did DOL comply with Federal requirements for the preliminary planning process
      for the DOL Enterprise-Wide Finance and Accounting services competition
      study?

   2. Did the contractor receive funds to correct deficiencies in its Preliminary Planning
      Report on the DOL Enterprise-Wide Finance and Accounting services
      competition study?

We conducted our audit in accordance with Government Auditing Standards for
performance audits. See Appendix B.




U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


Objective 1 – Did DOL comply with Federal requirements for the preliminary
planning process for the DOL finance and accounting services competition
study?


Results – DOL did not comply with Federal requirements for the preliminary
planning process for the DOL finance and accounting services competition study.

The OCFO, as the lead agency for conducting the competition study, did not use the
FAIR Act Inventory as the starting point in the initial phase of the preliminary planning
process. As a result, the initial phase included inherently governmental positions that
were being considered for competition, which Federal regulations do not allow. This
occurred because OCS did not have a policy that specifically stated that the position
classifications in the FAIR Act Inventory be used as the starting point for competition
studies. After an affected agency raised concerns, the OCFO and OCS excluded those
inherently governmental positions from further evaluation before the next phase of the
preliminary planning process. However, further corrective action is needed to mitigate
the risk that inherently governmental positions are included in future competitive
sourcing studies.

The FAIR Act of 1998 (Public Law 105-270), OMB Circular A-76, and the Federal
Acquisition Regulation (FAR) Parts 7.3 and 7.5 provide the requirements for competitive
sourcing studies.

    •   The FAIR Act requires Federal agencies to annually submit to OMB an inventory
        of activities performed by the agencies for activities that are not inherently
        governmental. The lists are reviewed by OMB and published in the Federal
        Register. Interested parties such as employees and labor unions can challenge
        the lists, and the head of the executive agency has to decide whether the
        activities need to be reclassified as a result of the challenge.

    •   OMB Circular A-76, revised May 29, 2003, states that agencies shall perform
        inherently governmental activities with governmental personnel.

    •   FAR Parts 7.3 and 7.5 state that it is the policy of the Federal Government to
        perform inherently governmental activities with Government personnel and
        subject commercial activities to the forces of competition. Agencies shall not use
        contractors to perform inherently governmental activities.

Based on the above criteria, we concluded that positions listed in the FAIR Act
Inventory as inherently governmental cannot be included in the competitive sourcing
study because doing so would violate OMB Circular A-76 and FAR Parts 7.3 and 7.5.




8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


After the FAIR Act Inventory, the next phase of the competitive sourcing process is the
preliminary planning phase. The major activities of this phase are to:

   •   Decide which activities and positions to be competed.
   •   Conduct preliminary research to determine the business units consistent with
       market and industry structures.
   •   Assess the availability of Work Load Data.
   •   Determine the baseline cost of the activity as performed by the incumbent
       service provider.

Our review of the preliminary planning tasks found that the OCFO did not use the FAIR
Act Inventory as the starting point to ensure that positions classified as inherently
governmental were not included in the DOL finance and accounting services
competition study.

The OCFO used a contractor, MAI, to assist in performing the preliminary planning
phase tasks. OCFO officials told us they developed the task order for MAI to conduct
the Business Case Analysis (BCA) and Preliminary Planning Analysis (PPA) phases of
the finance and accounting services competition study.

We found that in the BCA phase, MAI performed its own analysis of DOL finance and
accounting positions, instead of using the FAIR Act Inventories as a starting point to
identify the potential positions to be included in the competitive study. Specifically, in its
study, MAI used data from the FY 2004 and 2005 FAIR Act Inventories, data from the
DOL PeopleSoft human resource system, results of interviews with key management
personnel in each agency, and the justifications the agencies used for positions in their
FAIR Act inventory that they classified as commercial but not appropriate for private
sector performance. Based on its analysis, MAI recommended in the BCA Report that
some positions that the agencies coded as inherently governmental be evaluated during
the PPA phase to determine if they could be included in a potential competition study.

In the PPA phase, MAI conducted an activity analysis to further define the finance and
accounting activities performed by each of the agencies. MAI analyzed services to
determine how they were being performed and which of the services may be required in
developing a performance work statement. MAI interviewed agency management to
capture key elements of the employees’ finance and accounting activities. In the
Preliminary Planning Report, issued December 15, 2005, MAI identified a potential
study population of 171 positions which consisted of 144 finance and accounting
positions and 27 direct support positions. Of the 171 positions MAI recommended be
included in the competition study, 22 were classified by agencies in the FAIR Act
Inventory as inherently governmental and 12 were classified as commercial but not
appropriate for private sector performance.

After MAI issued the Preliminary Planning Report, Mine Safety and Health
Administration (MSHA) officials questioned the report because it recommended
competing positions that MSHA had classified as inherently governmental in the FAIR

U.S. Department of Labor—Office of Inspector General                                         9
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


Act Inventory. In a meeting with OCS and OCFO officials, MSHA agreed to reclassify
seven positions, which they did in accordance with OMB procedures. Before the
agreement to reclassify the positions, the Acting Assistant Secretary for Mine Safety
and Health requested the DOL Solicitor for a legal opinion regarding whether inherently
governmental positions listed on the FAIR Act Inventory can be included in a
competition study. The DOL Deputy Solicitor for National Operations provided a legal
opinion which concluded that applicable law does not permit DOL to include inherently
governmental positions in a competition study. DOL must base its competitive sourcing
decisions on the FAIR Act Inventory classifications unless and until it is changed. OCS
and the OCFO performed additional analysis to ensure that positions not appropriate for
the competition study were not included in the next phase. This reduced the number of
positions from 171 to 108. The following table shows how the number of positions was
adjusted to 108:

      Number of positions recommended in the Preliminary Planning
                                                                                     171
      Report.
      Removal of Employment and Training Administration positions
                                                                                     -15
      included in a previous competition.
      Removal of positions encumbered by a disabled employee.                         -1
      Exclusion of a MSHA position that was no longer financial.                      -1
      Exclusion of FAIR Act Inventory positions classified as
                                                                                     -12
      commercial but not appropriate for private sector performance.
      Exclusion of Fair Act Inventory positions classified as inherently
                                                                                     -22
      governmental.
      Exclusion of OCFO vacant positions.                                            -19
      Inclusion of reclassified MSHA positions from inherently
                                                                                      7
      governmental to commercial activity suitable for competition.
      Total Positions                                                                108

We concluded that MAI's work to evaluate the classification of inherently governmental
positions was not necessary because the FAIR Act Inventory should have been used as
the starting point. The purpose of the FAIR Act Inventory was for management to
identify and classify positions and activities in their agency as inherently governmental
or commercial. However, MAI's work evaluated the validity of the FAIR Act Inventory
that OMB had already approved. MAI should have used the FAIR Act Inventory as the
starting point in its work. By not using the FAIR Act Inventory, there was a risk that
positions classified as inherently governmental would be included in the competition
study, contrary to the FAIR Act, A-76, and FAR.

We reviewed the effectiveness of the procedures and guidance OCS provided to assist
the OCFO in the DOL finance and accounting services competition study. The
Department of Labor Manual Series 3, Performance of Commercial Activities, nor OCS
has specific policies or procedures to supplement the FAIR Act Inventory and OMB
Circular A-76 for the preliminary planning activities. OCS is responsible for assisting
agencies in conducting competition preliminary planning activities and serving as a
consultant and providing technical assistance to agency personnel on competitive

10                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


sourcing issues. OCS provided guidance to the OCFO in various memorandums,
periodic meetings, and multiple electronic mail (e-mail) messages. We concluded that
OCS provided OCFO sufficient guidance for the finance and accounting study with one
exception. We found that the OCS guidance sent to the OCFO on use of the FAIR Act
Inventory should have been more definitive. On May 16, 2005, OCS sent OCFO an e-
mail message that included three guiding principles for their preliminary planning
statement of work. The principle concerning the use of the FAIR Act Inventory stated
“The 2005 FAIR Act Inventory can be used as a starting point to discern IG (i.e.
inherently governmental) and core commercial activities....but must be followed by a
rigorous organizational analysis/work measurement regimen by the consultant.” The
problem with this principle is that it stated “the 2005 FAIR Act inventory can be used ...”
instead of stating that it must be used. The language “the FAIR Act inventory can be
used” could lead the reader to believe that the FAIR Act inventory did not have to be
used as the starting point to discern inherently governmental and commercial activities.

OCFO’s Decision Not to Require Use of the FAIR Act Inventory as a Starting Point

Concerning the issue of not using the FAIR Act Inventory as the starting point, OCFO
officials told us they interpreted OCS's e-mail message as guidance rather than a
requirement. Statements in the e-mail message implied that no existing determination
had been made as to which operations were of a commercial nature and which were
inherently governmental, and that the contractor was to assist them in making this
determination. OCFO officials reported that the OCS e-mail message used the words
“can be used” and not the words “must be used” to describe the FAIR Act Inventory as a
starting point. OCFO officials stated that there are numerous e-mail messages from
OCS staff validating the work done by the contractor and the study team related to the
DOL finance and accounting competitive study. The OCFO officials also stated that
these messages never indicated the process was improper or that the FAIR Act
Inventory was the sole determinant.

Since the use of the FAIR Act Inventory is critical in the competitive sourcing process,
OCS needs to implement a policy that clearly states that it be used in future competition
studies. Without such a policy, there is a risk that resources may be unnecessarily
spent re-evaluating management’s position classification and that inherently
governmental positions are improperly included in the competition study.

Recommendation

We recommend that the Assistant Secretary for Administration and Management
establish and implement a policy that requires that agencies performing competitive
sourcing competition studies use the position classifications in the FAIR Act Inventory
as a starting point, unless and until it is changed through approved processes.




U.S. Department of Labor—Office of Inspector General                                      11
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


Agency Response

In response to the draft report, the Deputy Assistant Secretary for Operations stated the
Department's policy and practice is that inherently governmental functions are not
subject to A-76 competitions. The response included a copy of a September 13, 2007,
memorandum from the Assistant Secretary for Administration and Management to DOL
agency heads clarifying the policy of using the DOL FAIR Act Inventory as the starting
point for establishing the universe of full time equivalents to be included in competitive
sourcing competitions. The response and follow-up email state the policy is planned to
be incorporated in DLMS-3, Chapter 900, Performance of Commercial Activities, by the
second quarter of Fiscal Year 2008.

OIG Conclusion

Based on the Deputy Assistant Secretary for Operations’ response and our review of
the memorandum issued to agency heads, the recommendation is resolved and will be
closed when OASAM issues the revised DLMS-3, Chapter 900, incorporating the
memorandum’s policies and procedures.


Objective 2 – Did the contractor receive funds to correct deficiencies in its
Preliminary Planning Report on the DOL finance and accounting services
competition study?


Results – The contractor did not receive funds to correct deficiencies in its
Preliminary Planning Report on the DOL finance and accounting services
competition study.

DOL contracted and agreed to pay MAI funds subsequent to the preliminary planning
phase. The tasks that MAI performed did not involve correcting deficiencies in the
Preliminary Planning Report.

The OCFO recommended, and OASAM selected, MAI from vendors that responded to
the blanket purchase agreement issued by OASAM for services for DOL’s competitive
sourcing efforts. OASAM’s contracting officer obligated $82,422 for Phase I and
$116,618 for Phase II of the preliminary planning process. Subsequently, the
contracting officer obligated $218,484 for the Performance Work Statement (PWS) and
Quality Assurance Surveillance Plan (QASP).




12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




We reviewed the work tasks for the PWS and QASP and determined they did not
include MAI correcting deficiencies in the Preliminary Planning Report. Rather, OCFO
and OCS officials performed the work to correct the deficiencies in the Preliminary
Planning Report.




Elliot P. Lewis
March 6, 2007




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




Appendices




U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


                                                                              APPENDIX A
BACKGROUND

Competitive sourcing studies are part of the competition process used to compare the
performance of a government organization with that of a private sector or other non-
Federal organization to determine which service provider can supply mission-related
support at the best price without compromising quality. The public-private competition
process is highly structured to ensure a level playing field for both private and
government bidders. Competitive sourcing is one of the elements of the President's
Management Agenda.

The FAIR Act of 1998 requires that an executive agency use a competitive process
under the guidance of OMB to select the source for the performance of commercial
activities. Under the FAIR Act, Federal agencies must develop an annual inventory of
all commercial activities performed by Federal employees, e.g., those activities that are
not inherently governmental. The commercial activities on the inventory provide the
universe of activities upon which future decisions related to competitive sourcing may
be made. The FAIR Act Inventory is the planning document from which activities are
selected for public-private competitions. The FAIR Act Inventory should fairly,
accurately, and completely represent the activities being performed at an agency in
meeting its mission. It is the policy of the Federal Government to perform inherently
governmental activities with Government personnel and subject commercial activities to
the forces of competition. Agencies shall not use contractors to perform inherently
governmental activities. Whether or not a commercial activity is carried out through the
private sector, or through the public sector, the A-76 process ensures that it is realistic,
fair, and transparent.

OMB reviews each agency's commercial activities inventory and consults with the
agency on its content. After OMB’s review, the agency must make its inventory
available and OMB shall publish a notice of availability in the Federal Register. The
FAIR Act permits an interested party to challenge the inclusion or exclusion of an
activity from the agency’s FAIR Act Inventory. Interested parties are: actual or
prospective offerors for any contract for performing the activity; representatives of
businesses or professional associations; officers or employees within the agency; or the
head of any labor organization whose members include employees in the agency.
Challenges must be filed within 30 working days of the publication of the notice of
availability.

Prior to the announcement of competitive sourcing competitions, OMB Circular A-76
requires that various steps be completed in the preliminary planning process. The
preliminary planning steps include:

   •   Scope - Determine the activities and full-time equivalent positions to be
       competed.



U.S. Department of Labor—Office of Inspector General                                      17
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


     •   Grouping - Conduct preliminary research to determine the appropriate grouping
         of activities as business units.

     •   Workload Data and Systems - Assess the availability of workload data, work
         units, quantifiable outputs of activities or processes, agency or industry
         performance standards, and other similar data.

     •   Baseline Costs - Determine the activities baseline costs as performed by the
         incumbent service provider.

     •   Requirements Identification – Identify type of competition, schedule, participant
         roles and responsibilities, competition officials, incumbent service providers.

In DOL, OASAM’s OCS is responsible for overseeing the planning and implementation
of the Department’s competitive sourcing program. OCS provides assistance and
guidance to DOL agencies in planning and conducting streamlined and standard
competitions.

In September 2004, DOL announced its draft FY 2005 Competition Plan which included
the Department’s finance and accounting function. In October 2004, the Assistant
Secretary for Administration and Management assigned the OCFO as the lead agency
for the finance and accounting services competition because of its responsibilities over
DOL’s financial accounting employees and systems.

The OCFO used a contractor, MAI, to assist in performing the preliminary planning
phase tasks. The OCFO developed the task order for MAI to conduct the Business
Case Analysis and Preliminary Planning Analysis phases of the finance and accounting
services competition study. MAI issued the Business Case Analysis Report on
August 22, 2005, and issued the Preliminary Planning Report on December 15, 2005.

In January 2006, OIG received a complaint alleging DOL did not comply with OMB
Circular A-76 policies and procedures for the preliminary planning process for the
finance and accounting competition study and a contractor issued a report on its
preliminary planning work that was inaccurate, yet received a new contract to rectify the
inaccuracy.

The DOL finance and accounting competition was published in the Federal Business
Opportunities with a response due date of February 28, 2007. DOL did not receive any
commercial bids and, therefore, DOL’s most efficient organization prevailed.




18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                                                                              APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA


Objectives
The Office of Inspector General (OIG) performed an audit in response to a complaint
concerning the U.S. Department of Labor’s (DOL) competitive sourcing of its finance
and accounting positions. The complainant alleged that DOL did not comply with Office
of Management and Budget (OMB) Circular A-76 policies and procedures for the
preliminary planning process for the finance and accounting competition study, and that
although a contractor’s report for the preliminary planning of the competitive sourcing
was inaccurate, funds were awarded to the same contractor to rectify the inaccuracy.

Our audit objectives were to answer the following questions:

   1. Did DOL comply with Federal requirements for the preliminary planning process
      for the DOL Enterprise-Wide Finance and Accounting services competition
      study?

   2. Did the contractor receive funds to correct deficiencies in its Preliminary Planning
      Report on the DOL Enterprise-Wide Finance and Accounting services
      competition study?

Scope

Our audit focused on the preliminary planning process for DOL competitive sourcing for
the Department’s finance and accounting positions. This consisted of activities that
occurred between September 2004 and November 2006.

We conducted our audit in accordance with Government Auditing Standards.

We conducted our field work at DOL’s National Office in Washington, DC between
August 4, 2006 and March 6, 2007.

Methodology

To determine if the OCFO complied with Federal requirements for the preliminary
planning process for the DOL finance and accounting services competition study, we
obtained an understanding of the work performed and compared it to the requirements
in the FAIR Act, OMB Circular A-76, FAR, and the DLMS. To obtain an understanding
of the work performed, we reviewed the two reports issued by MAI as part of the
preliminary planning process, the Business Case Analysis report issued August 22,
2005, and the Preliminary Planning Report issued December 15, 2005. We also
interviewed OCFO and OCS officials. From the OCFO, we interviewed the Chief
Financial Officer (CFO), the Deputy to the CFO, the Executive Assistant to the CFO,

U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


and the Contracting Officer’s Technical Representative. From OCS, we interviewed the
Director, Deputy Director, and the Assistant Secretary for Administration and
Management’s Special Assistant. We also interviewed the OASAM contracting officer
for the MAI contract.

To determine the effectiveness of the guidance OCS provided to the OCFO to assist
them in the DOL finance and accounting services competition study, we reviewed OCS
policies, procedures, correspondences, and e-mails. We also interviewed other DOL
agency officials involved in competitive sourcing about guidance OCS provided them
during the process.

To determine if MAI received funds to correct deficiencies in its Preliminary Planning
Report on the DOL finance and accounting services competition study, we reviewed the
Blanket Purchase Agreement, PWS and QASP Development tasks to be performed
after the issuance of the Preliminary Planning Report. We also interviewed OCFO and
OCS officials and reviewed their work.

We did not test the overall internal controls of OCS related to competitive sourcing or
perform a complete audit of the OCS’s competitive sourcing program. We only
performed the necessary fieldwork and tested controls related to the preliminary
planning process of DOL competitive sourcing necessary to address the allegations.
We documented the internal controls that were significant to the audit objectives. We
obtained an understanding of the internal control environment by interviewing OCS and
OCFO officials on the preliminary planning process for the DOL finance and accounting
competition.

Criteria

The audit used the following criteria to evaluate the competitive sourcing study for
DOL’s finance and accounting positions:

     •   The Federal Activities Inventory Reform Act of 1998 (Public Law 105-270)

     •   Office of Management and Budget Circular A-76, May 29, 2003

     •   The Federal Acquisition Regulation Parts 7.3 and 7.5, March 2005

     •   Department of Labor Manual Series 3, Chapter 900, Performance of Commercial
         Activities, August 2004




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


                                                                              APPENDIX C
ACRONYMS AND ABBREVIATIONS

                   BCA         Business Case Analysis

                   CFO         Chief Financial Officer

                   DOL         U.S. Department of Labor

                   FAIR        Federal Activities Inventory Reform

                   FAR         Federal Acquisition Regulation

                   IG          Inherently Governmental

                   MAI         Management Analysts, Incorporated

                   MSHA       Mine Safety and Health Administration

                   OASAM Office of the Assistant Secretary for Administration and
                         Management

                   OCFO        Office of the Chief Financial Officer

                   OCS         Office of Competitive Sourcing

                   OIG         Office of Inspector General

                   OMB         Office of Management and Budget

                   PPA         Preliminary Planning Analysis

                   PWS         Performance Work Statement

                   QASP        Quality Assurance Surveillance Plan




U.S. Department of Labor—Office of Inspector General                                      21
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
           Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions


                                                                              APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                      23
Report Number: 03-07-002-07-711
Complaint Involving DOL’s Competitive Sourcing of Finance and Accounting Positions




24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-07-002-07-711
